                                                          United Slates Department of Stale
                                                          and tlw Broadcasting Board of Govemor~

                                                          Office of Inspector General



                                                                   OCT 	 -1 2012
U.S. Office of Personnel Management 

Office of Inspector General 

Attention: W. W. Scott, Jr. 

Room 6400 

1900 E Street, N.W. 

Washington, DC 20415 


Dear Mr. Scott:

Enclosed for your information is the report Independent Accountant's Report on the Application 

ofAgreed-Upon Procedures: Employee Benefits, Withholdings, Contributions, and 

Supplemental Semiannual Headcount Reporting Submitted to the Office ofPersonnel 

Management (AUD-FM-13-01, Oct. 2012). 


The report, prepared at the direction of the Office of Inspector General by Kearney & Company, 

 P.C., is required by Office of Management and Budget Bulletin No. 07-04. Audit Requirements 

for Federal Financial Statements, as amended. The procedures were performed to assist the 

 Office of Personnel Management (OPM) in assessing the reasonableness of the retirement, health 

 benefits, and life insurance withholdings and contributions, as well as semiannual headcount 

 information, submitted to OPM by the Department of State. The procedures will also assist 

 OPM in identifying and correcting errors relating to processing and distributing Combined 

 Federal Campaign payroll deductions. 


If you have any questions about this report, please have your staff contact Gayle L. Voshell, 

Director of the Financial Management Division, at (703) 284-2681 or by e-mail at 

voshellg@state.gov. You may also contact Evelyn R. Klemstine, Assistant Inspector General for 

Audits, at (202) 663-0372 or by e-mail at klemstinee@state.gov. 


Sincerely,

~D£~
Harold W. Geisel
Deputy Inspector General

Enclosure: As stated.

cc: 	 CGFS - James L. Millette 

      DCFO - Christopher H. Flaggs 

         U.S. Department of State

Independent Accountant’s Report on the Application
  of Agreed-Upon Procedures: Employee Benefits,
  Withholdings, Contributions, and Supplemental
 Semiannual Headcount Reporting Submitted to the
         Office of Personnel Management

                                 AUD-FM-13-01

                                October 1, 2012




                                         Point of Contact:

                                    Jeff Green, Senior Partner

                                   1701 Duke Street, Suite 500

                                      Alexandria, VA 22314

                               703-931-5600, 703-931-3655 (fax)

                                     jgreen@kearneyco.com

         Kearney & Company’s TIN is 54-1603527, DUNS is 18-657-6310, Cage Code is 1SJ14
                            Independent Accountant’s Report

    on the Application of Agreed-Upon Procedures: Employee Benefits, Withholdings, 

   Contributions, and Supplemental Semiannual Headcount Reporting Submitted to the

                             Office of Personnel Management


The Honorable Patrick E. McFarland
U.S. Office of Personnel Management

Kearney & Company, P.C. (referred to as “we” in this report), performed the procedures
described in the enclosure to this report, which were agreed to by the Inspector General and the
Chief Financial Officer of the U.S. Office of Personnel Management (OPM). These procedures
were performed to assist OPM in assessing the reasonableness of retirement, health benefits, and
life insurance withholdings and contributions as well as enrollment information submitted via the
Semiannual Headcount Report by the Department of State (Department) for the payroll periods
ended August 27, 2011, February 11, 2012, and February 25, 2012. In addition, the procedures
were performed to assist OPM in identifying and correcting errors relating to processing and
distributing Combined Federal Campaign payroll deductions.

This agreed-upon procedures engagement was conducted in accordance with attestation
standards established by the American Institute of Certified Public Accountants and generally
accepted government auditing standards. The sufficiency of these procedures and related subject
matter is solely the responsibility of the Inspector General and the Chief Financial Officer of
OPM. Consequently, we make no representation regarding the sufficiency of the procedures
described in the enclosure either for the purpose for which this report has been requested or for
any other purpose.

The procedures and associated results are presented in the enclosure.

We were not engaged to and did not conduct an examination, the objective of which would be
the expression of an opinion on the withholdings and contributions for retirement, health
benefits, and life insurance, the Semiannual Headcount Reports, and the Combined Federal
Campaign payroll deductions of the Department. Accordingly, we do not express such an
opinion. Had we performed additional procedures, other matters might have come to our
attention that would have been reported to you.

This report is intended solely for the information and use of the Inspector General and the Chief
Financial Officer of OPM and is not intended to be and should not be used by anyone other than
these specified parties. However, the report is a matter of public record, and its distribution is
not limited.




Alexandria, Virginia
October 1, 2012

Enclosure
                    Procedures Agreed Upon                                      Findings/Comments
Obtain the agency payroll provider’s (APP) September 2011 and         Completed.
March 2012 Semiannual Headcount Reports submitted to the U.S.         Selected pay periods 17 and 4, which
Office of Personnel Management (OPM) and a summary of                 coincided with the September 2011 and
Retirement and Insurance Transfer System (RITS) submissions for       March 2012 Semiannual Headcount
September 2011 and the current fiscal year. For Retirement,           Reports, respectively. The third pay
Health Benefits, and Life Insurance, select a total of three RITS     period selected was pay period 3.
submissions for September 2011 and the current fiscal year; two
will coincide with the September 2011 and March 2012
Semiannual Headcount Report. Obtain payroll information for the
periods covered by the RITS submissions selected.

1. Compare RITS submission data to the payroll information by
performing the following procedures (Note: For cross-servicing
agencies, if the internal controls are the same for all agencies
serviced, it is only necessary to perform this procedure for one
agency.):

1.a. Recalculate the mathematical accuracy of the payroll             Completed.
information.

1.b. Recalculate the mathematical accuracy of each RITS               Completed.
submission for the payroll information selected in step 1.a.

1.c. Compare the employee withholding information at the              Completed.
aggregate level for Retirement, Health Benefits, and Life Insurance
(as adjusted for reconciling items) shown on the payroll
information obtained in step 1.a. to the related amounts shown on
the RITS submission for the corresponding period.

Report any differences for each of the Retirement, Health Benefits,   Completed.
and Life Insurance (categories) for step 1.c. that are over one       The comparison of Federal Employees
percent of the aggregate amount reported for each of the three        Group Life Insurance (FEGLI) Option C
categories. Obtain from management a management official name,        withholdings for pay period 3 resulted in
an explanation, telephone number, and an e-mail address for the       a difference over one percent. The
differences above the one percent threshold.                          amount of FEGLI Option C withholdings
                                                                      reported in the RITS submission was
                                                                      $408.50 (3.4 percent) less than the
                                                                      amount in the payroll register.
                                                                      Management stated that the difference
                                                                      was due to the changes made in employee
                                                                      base pay and dependent eligibility, and
                                                                      adjustments were made after the original
                                                                      PP 03/12 cycle closed.

                                                                      Contact Information:
                                                                      Paul McVicker
                                                                      Director, Financial Coordination and
                                                        1

                     Procedures Agreed Upon                                      Findings/Comments
                                                                        Reports Division
                                                                        mcvickerpj@state.gov
                                                                        (843) 202-3858

                                                                        Jeff Mounts
                                                                        Managing Director
                                                                        Global Compensation
                                                                        mountsjc@state.gov
                                                                        (843) 308-5301
2.a. Randomly select a total of 25 individuals who were in the          Completed.
payroll system for all three of the RITS submissions selected above
that meet all the following criteria:

    •   Covered by the Civil Service Retirement System (CSRS) or
        the Federal Employees Retirement System (FERS);
    •   Enrolled in the Federal Employees Health Benefits
        Program;
    •   Covered by Basic Life Insurance; and
    •   Covered by at least one FEGLI optional coverage (Option
        A, B, or C).

2.b. Obtain the following documents, either in electronic or hard­      Completed.
copy format, from the Official Personnel File (OPF) for each
individual selected in step 2.a. Hard copies can be originals or
certified copies.

•   All Notifications of Personnel Actions (SF-50) covering the pay
    periods in the RITS submissions chosen;

•   The Health Benefits Election Form (SF-2809) covering the pay
    periods in the RITS submissions chosen or, if applicable, obtain
    a report (via the agency personnel office) from the agency’s
    automated system that allows participants to change benefits
    (e.g., Employee Express) for any Health Benefits transactions
    in that system for the individuals selected in step 2.a. (Note: A
    new SF-2809 is needed only if an employee is changing health
    benefit plans; therefore, the form could be many years old.);
    and

    •   For Health Benefits, compare date of transaction with date      Completed.
        on the certified copy of the SF-2809 or the agency’s
        automated system report obtained above to identify whether
        the health benefit information to be used in step 2.f. covers
        the pay periods in the RITS submissions chosen.

•   The Life Insurance Election Form (SF-2817) covering the pay
    periods in the RITS submission chosen. (Note: A new SF-
                                                     2

                    Procedures Agreed Upon                                      Findings/Comments
   2817 is needed only if an employee is changing life insurance
   coverage; therefore, the form could be many years old.)

2.c. For each individual selected in step 2.a., compare the base      Completed.
salary used for payroll purposes and upon which withholdings and      No differences were found as a result of
contributions generally are based with the base salary reflected on   applying this procedure.
the employee’s SF-50. Report any differences resulting from this
step, and obtain management’s explanation for the differences.

2.d. For Retirement for each individual selected in step 2.a.,        Completed.
compare the retirement plan code from the employee’s SF-50 with       No differences were found as a result of
the plan code used in the payroll system. Report any differences      applying this procedure.
resulting from this step, and obtain management’s explanation for
the differences.

2.e. For each individual selected in step 2.a., calculate the         Completed.
retirement amount to be withheld and contributed for the plan code    No differences were found as a result of
from the employee’s SF-50 by multiplying the base salary from the     applying this procedure.
employee’s SF-50 by the official withholding and contribution
rates required by law. Compare the calculated amounts with the
actual amounts withheld and contributed for the retirement plan.
Report any differences resulting from this step, and obtain
management’s explanation for the differences.

2.f. For Health Benefits for each individual selected in step 2.a.,   Completed.
compare the employee withholdings and agency contributions with       No differences were found as a result of
the official subscription rates issued by OPM for the plan and        applying this procedure.
option elected by the employee, as documented by an SF-2809 in
the employee’s OPF or automated system that allows the
participant to change benefits (e.g., Employee Express). Report
any differences resulting from this step and obtain management’s
explanation for the differences. The Health Benefits rates can be
found on OPM’s website at http://www.opm.gov/insure/health/
rates/index.asp.

2.g. For Life Insurance for each individual selected in step 2.a.,    Completed.
confirm that Basic Life Insurance was elected by the employee by      The Department was unable to provide
inspecting the SF-2817 documented in the employee’s OPF.              the SF-2817 for two of 25 employees. No
Report any differences resulting from this step, and obtain           differences were found for 22 of the
management’s explanation for the differences.                         remaining 23 employees. However, one
                                                                      employee waived coverage based on the
                                                                      SF-2817 but was covered by Basic Life
                                                                      Insurance. Management was unable to
                                                                      provide an explanation for this difference.

2.h. For each individual selected in step 2.a., calculate the
withholding and contribution amounts for Basic Life Insurance
                                                           3

                       Procedures Agreed Upon                                     Findings/Comments
using the following:

•	   For employee withholdings: Round the employee's annual base        Completed.
     salary up to the nearest thousand dollars and add $2,000.
     Divide this total by 1,000, and multiply by the rate required by
     law. The Life Insurance rates can be found in the FEGLI
     Program Booklet on OPM’s website at http://www.opm.gov/
     insure/ life/rates/index.asp.

•	   For agency contributions: Divide the employee withholdings         Completed.
     calculated above by two.

Compare the calculated employee withholdings and agency                 Completed.
contributions with the actual amounts withheld and contributed for      The Department was unable to provide
Basic Life Insurance. Report any differences resulting from this        the SF-2817 for two of 25 employees. No
step, and obtain management’s explanation for the differences.          differences were found for 22 of the
                                                                        remaining 23 employees as a result of
                                                                        applying this procedure. However, for
                                                                        one employee who waived Basic Life
                                                                        Insurance on the SF-2817 (see step 2.g.),
                                                                        the Department withheld $14.25 and
                                                                        contributed $7.13 for Basic Life
                                                                        Insurance each pay period. Management
                                                                        was unable to provide an explanation for
                                                                        this difference.

2.i. Also, for Life Insurance for each individual selected in step      Completed.
2.a., compare optional coverage elected as documented on the SF­        The Department was unable to provide
2817 in the employee’s OPF to the optional coverage documented          the SF-2817 for two of 25 employees. No
in the payroll system. Report any differences resulting from this       differences were found for 21 of the
step, and obtain management’s explanation for the differences.          remaining 23 employees as a result of
                                                                        applying this procedure. However, for
                                                                        two employees, the optional coverage
                                                                        election in the SF-2817 did not agree with
                                                                        the optional coverage documented in the
                                                                        payroll system. Specifically, the SF-2817
                                                                        for one employee indicated that the
                                                                        employee elected Basic, Option B (4x),
                                                                        and Option C (4x), but the payroll system
                                                                        indicated that the employee elected Basic,
                                                                        Option B (5x) and Option C (4x). The
                                                                        SF-2817 for another employee indicated
                                                                        that the employee waived coverage, but
                                                                        the payroll system indicated that the
                                                                        employee elected Basic and Option A.
                                                                        Management was unable to provide an
                                                                        explanation for these differences.
                                                         4

                     Procedures Agreed Upon                                     Findings/Comments


2.j. For each individual selected in step 2.a., calculate the
withholding amounts for optional life insurance using the
following:

•   For Option A: Locate the employee’s age group using the age       Completed.
    groups provided for Option A in the FEGLI Program Booklet.        The Department was unable to provide
    The withholding amount to be used is the rate listed in the       the SF-2817 for two of 25 employees. No
    FEGLI Program Booklet for that age group. Compare the             differences were found for 22 of the
    calculated amount with the amount withheld for Option A Life      remaining 23 employees as a result of
    Insurance. Report any differences resulting from this step, and   applying this procedure. However, the
    obtain management’s explanation for the differences.              SF-2817 for one employee indicated that
                                                                      the employee waived coverage, but the
                                                                      payroll system indicated that the
                                                                      employee elected Basic and Option A
                                                                      (see step 2.i.). The Department withheld
                                                                      $0.90 each pay period for Option A
                                                                      coverage. Management was unable to
                                                                      provide an explanation for this difference.

•   For Option B: Inspect the SF-2817 to obtain the number of         Completed.
    multiples chosen for Option B. Locate the employee’s age          The Department was unable to provide
    group using the age groups provided for Option B in the FEGLI     the SF-2817 for two of 25 employees. No
    Program Booklet. Round the employee’s annual rate of basic        differences were found for 22 of the
    pay up to the next 1000, divide by 1000, and multiply by the      remaining 23 employees as a result of
    rate for the respective age group. Multiply this amount by the    applying this procedure. However, the
    number of multiples chosen for Option B Life Insurance.           SF-2817 for one employee indicated that
    Compare the calculated amount with the amount withheld for        the employee elected Option B (4x),
    Option B Life Insurance. Report any differences resulting from    while the payroll system indicated that the
    this step, and obtain management’s explanation for the            employee elected Option B (5x) (see step
    differences.                                                      2.i.). The Department withheld $78.00
                                                                      each pay period for Option B coverage,
                                                                      which was $15.60 more than the $62.40
                                                                      calculated based on the SF-2817 election.
                                                                      Management was unable to provide an
                                                                      explanation for this difference.

•   For Option C: Inspect the SF-2817 to obtain the number of         Completed.
    multiples chosen for Option C. Locate the employee’s age          The Department was unable to provide
    group using the age groups provided for Option C in the FEGLI     the SF-2817 for two of 25 employees. No
    Program Booklet. Multiply the rate for the age group by the       differences were found for the remaining
    number of multiples chosen for Option C Life Insurance.           23 employees as a result of applying this
    Compare the calculated amount with the amount withheld for        procedure.
    Option C Life Insurance. Report any differences resulting from
    this step, and obtain management’s explanation for the
    differences.

                                                           5

                    Procedures Agreed Upon                                      Findings/Comments
3. Randomly select a total of 10 employees who have no Health         Completed.
Benefits withholdings from the payroll information corresponding
to the three RITS submissions selected above, and perform the
following steps for each employee selected:

3.a. Obtain SF-2809s covering the pay periods in the RITS            Completed.
submissions chosen, either in electronic or hard-copy format, from
the selected employee’s OPF or, if applicable, obtain a report (via
the agency personnel office) from the agency’s automated system
that allows participants to change benefits (e.g., Employee Express)
for any Health Benefit transactions in that system for the
individuals selected. Hard copies can be originals or certified
copies. Inspect the documentation (i.e., SF-2809 or the agency’s
system-generated report) to identify whether health benefits
coverage was not elected. This can be identified in the following
ways:

•   absence of an SF-2809 in the OPF and no election of coverage
    made through the agency’s automated system that allows
    participants to change benefits (e.g., Employee Express), or

•   an SF-2809 in the OPF with Section E checked (indicating
    cancellation of coverage) and no later election of coverage
    through the agency’s automated system that allows participants
    to change benefits (e.g., Employee Express), or

•   cancellation of coverage through the agency’s automated
    system that allows participants to change benefits (e.g.,
    Employee Express) and no later election of coverage with an
    SF-2809.

3.b. Compare the result in step 3.a. with the RITS submissions.       Completed.
Report any differences resulting from this step, and obtain           No differences were found as a result of
management’s explanation for the differences.                         applying this procedure.

4. Randomly select a total of 10 employees who have no Life       Completed.
Insurance withholdings from the payroll information corresponding
to the three RITS submissions selected above, and perform the
following steps for each employee selected:

4.a. Obtain the SF-2817s covering the pay periods in the RITS         Completed.
submissions chosen, either in electronic or hard-copy format, from
the selected employee’s OPF. Hard copies can be originals or
certified copies. Inspect the SF-2817 to identify that the employee
waived or cancelled Basic Life Insurance coverage.

4.b. Compare the result in step 4.a. with the RITS submissions.       Completed.
                                                       6

                     Procedures Agreed Upon                                        Findings/Comments
Report any differences resulting from this step, and obtain              No differences were found for nine of 10
management’s explanation for the differences.                            employees as a result of applying this
                                                                         procedure. However, the Department was
                                                                         unable to provide the SF-2817 for one
                                                                         employee. Management was unable to
                                                                         provide an explanation for this difference.

5. Calculate the headcount reflected on the September 2011 and
March 2012 Semiannual Headcount Report selected as follows:

5.a. Obtain existing payroll information (from step 1.a.) supporting     Completed.
each Supplemental Semiannual Headcount report. If existing
payroll data are not available, obtain a payroll system query that
summarizes detailed payroll data supporting each Supplemental
Semiannual Headcount Report as follows:

•   Benefit Category (see Semiannual Headcount Report).
•   Dollar Amount of withholdings and contributions.
•   Number Enrolled (deductions made/no deductions).
•   Central Personnel Data File Code.
•   Aggregate Base Salary.

5.b. Recalculate the Headcount reflected on each Semiannual           Completed.
Headcount Report. If an electronic file is not available, a suggested
method of recalculating the Headcount is as follows: (1) estimate
the number of employees per payroll register page by counting the
employees listed on several pages, (2) count the number of pages in
the payroll register, and (3) multiply the number of employees per
page by the number of pages or count (using a computer audit
routine) the number of employees on the payroll data file for the
period.

5.c. Compare the payroll information obtained in step 5.a. and the       Completed.
calculated headcount from step 5.b. with the information shown on
each respective Semiannual Headcount Report.

5.d. Report any differences (i.e., gross rather than net) greater than   Completed.
two percent between the Headcount reporting on each respective           One difference greater than two percent
agency Semiannual Headcount Report and payroll information               was observed in pay periods 17, 3, and 4
from step 5.a. and the calculated Headcount from step 5.b. Obtain        related to the U.S. Trade Representative
from management a management official name, telephone number,            Headcount Reports. The Department
an email address, and an explanation for the differences.                reported a total headcount of 13 in the
                                                                         Semiannual Headcount Report; the total
                                                                         headcount in the payroll register was 15.
                                                                         Based on inquiry, the difference is due to
                                                                         the inclusion of records for two
                                                                         individuals who are personal services
                                                          7

                     Procedures Agreed Upon                                        Findings/Comments
                                                                         contractors (PSC). PSCs are not
                                                                         employees and do not contribute to
                                                                         FEGLI, FEHB, or retirement; the
                                                                         Department accounts for PSCs for tax
                                                                         withholding purposes.

                                                                         Contact Information:
                                                                         Paul McVicker
                                                                         Director, Financial Coordination and
                                                                         Reports Division
                                                                         mcvickerpj@state.gov
                                                                         (843) 202-3858

                                                                         Jeff Mounts
                                                                         Managing Director
                                                                         Global Compensation
                                                                         mountsjc@state.gov
                                                                         (843) 308-5301
6. Calculate employer and employee contributions for Retirement,
Health Benefits, and Life Insurance as follows:

6.a. Calculate Retirement withholdings and contributions for the
three pay periods selected in step 1.a., as follows:

  i.   Multiply the CSRS and FERS payroll base by the                    Completed.
       withholding and employer contribution rates required by
       law.

 ii.   Compare the calculated totals from step 6.a.i. with the           Completed.
       related amounts shown on the RITS submissions. Report             No differences greater than five percent
       any differences (i.e., gross rather than net) between the         were found as a result of applying this
       calculated amounts and the amounts reported on the RITS           procedure.
       submissions greater than five percent of the amounts on the
       RITS submission, and obtain management’s explanation for
       the differences.

6.b. Calculate employee withholdings and employer contributions
for Health Benefits for the three pay periods selected in step 1.a. as
follows:

  i.   Multiply the number of employees enrolled in each Health   Completed.
       Benefits plan and plan option by the employee withholdings
       and employer contributions for the plan and option.

 ii.   Sum the totals in step 6.b.i., and compare the result with the    Completed.
       Health Benefit withholding and contribution amounts               No differences greater than five percent
       shown on the RITS submissions. Report any differences             were found as a result of applying this
                                                         8

                     Procedures Agreed Upon                                        Findings/Comments
        (i.e., gross rather than net) between the calculated amounts     procedure.
        and the amounts reported on the RITS submissions greater
        than five percent of the amounts on the RITS submission,
        and obtain management’s explanation for the differences.

6.c. Calculate the Basic Life Insurance employee withholdings and
employer contributions for the three pay periods selected in step
1.a. as follows:

   i.   Obtain a payroll system query from APP personnel to              Completed.
        obtain the total number of employees with Basic Life
        Insurance coverage and the aggregate annual basic pay for
        all employees with Basic Life Insurance.

 ii.    For employee withholdings: Add the product of 2,000              Completed.
        times the number of employees with Basic Life Insurance
        coverage from step 6.c.i. above to the aggregate annual
        basic pay for all employees with Basic Life Insurance from
        step 6.c.i. above to calculate the estimated total Basic Life
        Insurance coverage. Divide this calculated total by 1,000
        and multiply by the withholding rate required by law. The
        Life Insurance withholding rates can be found in the FEGLI
        Program Booklet on OPM’s website.

 iii.   Compare the result in step 6.c.ii. with the withholdings for     Completed.
        Basic Life Insurance coverage reported on the RITS               No differences greater than five percent
        submission. Report any difference (i.e., gross rather than       were found as a result of applying this
        net) between the estimate and the amount of withholdings         procedure.
        reported on the RITS submission greater than five percent
        of the amounts on the RITS submission, and obtain
        management’s explanation for the difference.

 iv.    For agency contributions: Divide the results of step 6.c.ii.     Completed.
        by two—this approximates agency contributions, which are         No differences greater than five percent
        one-half of employee withholdings. Compare this result           were found as a result of applying this
        with the amount reported on the RITS submission. Report          procedure.
        any differences (i.e., gross rather than net) between the
        estimated amount and the actual amount reported on the
        RITS submission greater than five percent of the amounts
        on the RITS submission, and obtain management’s
        explanation for the differences.

6.d. Calculate the Option A, Option B, and Option C Life
Insurance coverage withholdings for the three pay periods selected
by using detailed payroll reports used to reconcile the RITS reports
in step 1. In addition to the information used for step 1, the reports
should include the employee's date of birth, annual rate of basic
                                                          9

                        Procedures Agreed Upon                                         Findings/Comments
pay, and number of multiples selected for Options B and C. (Note:
While similar to step 2.j., the calculation at this step is for the entire
amount reported on the RITS submissions for the three pay periods
selected, as opposed to the sample of 25 employees in step 2.j.)

   i.      Multiply the number of employees in each age group by the         Completed.
           appropriate rate for Option A in accordance with the rates
           for age groups provided in the FEGLI Program Booklet.

 ii.       Compare the result in step 6.d.i. with the amounts for            Completed.
           Option A reported on the RITS submissions. Report any             No differences greater than two percent
           differences (i.e., gross rather than net) greater than two        were found as a result of applying this
           percent of the amounts on the RITS submission, and obtain         procedure.
           management’s explanation for the differences.

 iii.      Segregate the reports for Option B and Option C insurance     Completed.
           into the age groups shown in the FEGLI Program Booklet.
           For Option B, round the employee's annual rate of basic pay
           up to the next 1000, divide by 1000, multiply by the rate for
           the age group, and multiply this by the number of multiples:

           (Annual rate of basic pay [rounded up]
           /1000*rate*multiples).

           For Option C, multiply the rate for the age group by the
           number of multiples chosen for each employee.

 iv.       Compare the result in step 6.d.iii. with the amounts for          Completed.
           Option B and Option C, respectively, reported on the RITS         No differences greater than two percent
           submissions. Report any differences (i.e., gross rather than      were found as a result of applying this
           net) greater than two percent of the amounts on the RITS          procedure.
           submission for Option B or Option C, and obtain
           management’s explanation for the differences.

For the Combined Federal Campaign (CFC) payroll deductions,
obtain the following documentation for the federal agencies
serviced by the APP:

       a) A list of all field offices/duty stations in existence during      Completed.
          the Fall 2011 CFC solicitation period (September 1, 2011
          through December 15, 2011) for each federal agency
          serviced. The list must include the OPM Official Duty
          Station Code or the county, city, state, and zip code for the
          field office.

        b) A list of all local CFC campaigns and the areas they cover.       Completed.
           This list should be obtained directly from the OPM Office
                                                           10

                     Procedures Agreed Upon                                         Findings/Comments
        of CFC (OCFC).

    c) A list of accounting codes used by the APP to identify each        Completed.
       local CFC campaign. The list should include the
       accounting code, name of campaign, name of Principal
       Combined Fund Organization (PCFO) for that campaign,
       and address of PCFO.

    d) A report of all employees with CFC deductions from the             Completed.
       RITS submission selected to coincide with the March 2012
       Semiannual Headcount. The report must include each
       employee’s official duty station location and the APP’s
       accounting code identifying the campaign to which each
       employee’s funds are being distributed.
7. Compare the list of field offices/duty stations to the list of local
CFC campaigns obtained from OPM’s OCFC.

7.a. Determine in which campaign each field office/duty station is        Completed.
located. (Note: It is possible for a field office/duty station to be in
a location with no local CFC campaign.)

8. Compare the list of accounting codes with the identified
campaigns for each field office/duty station.

8.a. Determine the accounting code for each field office/duty             Completed.
station.

8.b. Determine if the name of the campaign, the PCFO, and address Completed.
of the PCFO in the APP system agree to the information for that     No differences were found as a result of
field office/duty station on the list of local CFC campaigns        applying this procedure.
obtained from OPM’s OCFC.
9. Sort the report of all employees with CFC deductions by Official
Duty Station.

9.a. Compare the Official Duty Stations with the campaigns                Completed.
identified for those locations.                                           The comparison of Official Duty Stations
                                                                          with the campaigns identified for those
                                                                          locations identified one instance, of the
                                                                          234 Official Duty Stations, in which the
                                                                          Official Duty Station did not match the
                                                                          campaign identified for that location. All
                                                                          employees at the Melbourne, Florida,
                                                                          duty station contributed to the CFC of the
                                                                          National Capital Area (CFC Location
                                                                          Code 990) rather than the Spacecoast
                                                                          CFC (CFC Location Code 181).
                                                                          Management was unable to provide an
                                                          11

                    Procedures Agreed Upon                                       Findings/Comments
                                                                       explanation for this discrepancy.

9.b. Compare the Accounting Codes for each employee with CFC
deductions to the accounting code for that employee’s Official
Duty Station.

   •   Determine if this agrees to the accounting code identified      Completed.
       for that field/duty station.                                    The Department uses the CFC location
                                                                       code to ensure that CFC deductions are
                                                                       being made to the correct campaign based
                                                                       on the employee’s Official Duty Station.
                                                                       Accordingly, we compared each
                                                                       employee’s CFC location code to the city
                                                                       and state of the employee’s Official Duty
                                                                       Station. Of the 2,696 individual
                                                                       contributions tested, we identified 34
                                                                       instances in which the employee’s
                                                                       Official Duty Station did not agree to the
                                                                       CFC location code or insufficient data
                                                                       was provided to compare the CFC code to
                                                                       the employee’s Official Duty Station.
                                                                       Management was unable to provide an
                                                                       explanation for these discrepancies.
10. From the list of accounting codes that do not agree with the
field office/duty station, select a judgmental sample of two pledges
per federal agency and request the hard copy pledge form from the
agency.

   •   Determine if the pledge form used was for the correct           Completed.
       campaign based on the official duty station.                    From the 34 instances identified in step
                                                                       9.b., we selected two pledges from the
                                                                       U.S. Department of State and two pledges
                                                                       from the U.S. Trade Representative. For
                                                                       one of the pledges selected, the employee
                                                                       completed the pledge form for the correct
                                                                       campaign based on the employee’s
                                                                       official duty station. For the remaining
                                                                       three pledges selected, the employees
                                                                       completed a pledge form from a
                                                                       campaign area other than their official
                                                                       duty station. Management indicated that
                                                                       this may have resulted from a manual
                                                                       processing error.
CFC AUP Evaluation: Report as a finding the following:

   •   All instances in which the name of the campaign, PCFO, or       No instances were identified in which the
       address of the PCFO on the list of accounting codes from        name of the campaign, PCFO, or address
                                                      12

                Procedures Agreed Upon                                       Findings/Comments
    the Federal Payroll Office does not agree to the information   of the PCFO on the list of accounting
    on the list of all local CFC campaigns obtained from OPM's     codes from the Federal Payroll Office did
    OCFC. A chart detailing the differences should be              not agree to the information on the list of
    included. Obtain management's explanation for the              all local CFC campaigns obtained from
    differences and corrective action plan.                        OPM’s OCFC.

•   All instances in which a federal agency has a CFC              No instances were identified in which the
    deduction for an employee whose official duty station is in    Department had a CFC deduction for an
    an area with no local CFC campaign. A chart listing the        employee whose official duty station was
    Federal agency, the duty station code, and the campaign        in an area with no local CFC campaign.
    receiving the funds should be included. Obtain
    management's explanation for the differences and a
    corrective action plan.

•   All instances in which the accounting code for an employee     We identified 34 instances in which the
    with CFC deductions does not agree to the accounting for       employee’s Official Duty Station did not
    that employee's Official Duty Station. A chart listing the     agree to the CFC location code or

    Federal agency, the duty station code, the campaign used,
     insufficient data was provided to compare
    and the correct campaign should be included. Obtain            the CFC code to the employee’s Official
    management's explanation for the differences and a             Duty Station. A chart listing the Federal
    corrective action plan.                                        agency, the duty station code, the
                                                                   campaign used, and the correct campaign
                                                                   is attached to this report. Management
                                                                   was unable to provide an explanation for
                                                                   these discrepancies.

•	 All instances in which the incorrect pledge form was used       We identified three instances in which an
   by the employee. A chart listing the Federal agency, the        incorrect pledge form was completed by
   correct campaign, and the campaign used should be               the employee. A chart listing the Federal
   included.                                                       agency, the correct campaign, and the
                                                                   campaign used is attached to this report.




                                                   13

                     Combined Federal Campaign Agreed-Upon Procedures Evaluation - Step C


                                                                               Duty Station
                                                            Duty Station         Location                                   Correct
Number             Name              Federal Agency        Location (City)    (Country/State)     Campaign Used            Campaign
         (b) (6)                                                                                                        CFC of the National
  1                              19 - State Department   KABUL               AFGHANISTAN        Atlantic Coast CFC        Capital Area
                                                                                                                        CFC of the National
  2                              19 - State Department   WASHINGTON          DC                 Atlantic Coast CFC        Capital Area
                                                                                                CFC of Eastern            Northern New
  3                              19 - State Department   PORTSMOUTH          NEW HAMPSHIRE      Massachusetts             England CFC
                                                                                                CFC of Eastern          CFC of the National
  4                              19 - State Department   WASHINGTON          DC                 Massachusetts             Capital Area
                                                                                                                        CFC of the National
  5                              19 - State Department   CARACAS             VENEZUELA          CFC of New York City      Capital Area
                                                                                                                        CFC of the National
  6                              19 - State Department   WASHINGTON          DC                 CFC of New York City      Capital Area
                                                                                                                        CFC of the National
  7                              19 - State Department   BAGHDAD             IRAQ               CFC of New York City      Capital Area
                                                                                                Southeastern
                                                                                                Pennsylvania & Lehigh    Insufficient Data
  8                              19 - State Department   Room 103            Not Provided       Valley Area CFC              Provided
                                                                                                Dallas-Fort Worth        Insufficient Data
  9                              19 - State Department   CA/PPT/NPC          Not Provided       (DFW) Metroplex CFC          Provided
                                                                                                CFC of the National      Insufficient Data
  10                             19 - State Department   Suite 101           Not Provided       Capital Area                 Provided
                                                                                                CFC of the National      Insufficient Data
  11                             19 - State Department   Not Provided        Not Provided       Capital Area                 Provided
                                                                                                CFC of the National      Insufficient Data
  12                             19 - State Department   Suite 101           Not Provided       Capital Area                 Provided
                                                                                                CFC of the National      Insufficient Data
  13                             19 - State Department   Pol/Econ            Not Provided       Capital Area                 Provided
                                                                                                CFC of the National      Insufficient Data
  14                             19 - State Department   Suite 101           Not Provided       Capital Area                 Provided
                                                                                                CFC of the National      Insufficient Data
  15                             19 - State Department   US EMBASSY          Not Provided       Capital Area                 Provided
                                                                                                CFC of the National      Insufficient Data
  16                             19 - State Department   Not Provided        Not Provided       Capital Area                 Provided



                                                              14 

                                                                            Duty Station
                                                         Duty Station         Location                                 Correct
Number             Name       Federal Agency            Location (City)    (Country/State)     Campaign Used          Campaign
         (b) (6)                                                                             CFC of the National
  17                      11 – Trade Representative   MELBOURNE           FLORIDA            Capital Area           Spacecoast CFC
                                                                          SOUTH              CFC of the National    Coastal Carolina
  18                      19 - State Department       CHARLESTON          CAROLINA           Capital Area                CFC
                                                                                             CFC of the National
  19                      19 - State Department       DADE, MIAMI         FLORIDA            Capital Area          Atlantic Coast CFC
                                                                                             CFC of the National     Insufficient Data
  20                      19 - State Department       Suite 101           Not Provided       Capital Area                Provided
                                                                                             CFC of the National   Metropolitan Denver
  21                      19 - State Department       DENVER              COLORADO           Capital Area               Area CFC
                                                                                             CFC of the National     Insufficient Data
  22                      19 - State Department       Suite 101           Not Provided       Capital Area                Provided
                                                                                             CFC of the National    CFC of New York
  23                      19 - State Department       NEW YORK CITY       NEW YORK           Capital Area                  City
                                                                                             CFC of the National
  24                      11 - Trade Representative   MELBOURNE           FLORIDA            Capital Area           Spacecoast CFC
                                                                                             CFC of the National    Insufficient Data
  25                      19 - State Department       Not Provided        Not Provided       Capital Area               Provided
                                                                                             CFC of the National
  26                      11 – Trade Representative   MELBOURNE           FLORIDA            Capital Area            Spacecoast CFC
                                                                                             CFC of the National    Insufficient Data
  27                      19 - State Department       Not Provided        Not Provided       Capital Area               Provided
                                                                                             CFC of the National      Greater New
  28                      19 - State Department       NEW ORLEANS         LOUISIANA          Capital Area           Orleans Area CFC
                                                                                             CFC of the National    Insufficient Data
  29                      19 - State Department       Not Provided        Not Provided       Capital Area               Provided
                                                                                             CFC of the National    Insufficient Data
  30                      19 - State Department       Suite 101           Not Provided       Capital Area               Provided
                                                                                             CFC of the National    Insufficient Data
  31                      19 - State Department       Consul/General      Not Provided       Capital Area               Provided
                                                                                             CFC of the National    Insufficient Data
  32                      19 - State Department       Suite 101           Not Provided       Capital Area               Provided
                                                                                                                   CFC of the National
  33                      19 - State Department       KHARTOUM            SUDAN              CFC Norcal               Capital Area
                                                                                                                   CFC of the National
  34                      19 - State Department       WASHINGTON          DC                 CFC Norcal               Capital Area


                                                           15 

                 Combined Federal Campaign Agreed-Upon Procedures Evaluation - Step D


Number       Employee Name       Federal Agency                 Correct Campaign                         Campaign Used
     1 (b) (6)                19 - State Department       CFC of the National Capital Area   Atlantic Coast CFC
     2                        11 - Trade Representative   Spacecoast CFC                     CFC of the National Capital Area
     3                        11 - Trade Representative   Spacecoast CFC                     CFC of the National Capital Area




                                                              16 

